WAIVER

FILED
AUG 03 aird
OFFICE OF E CLERK
SUPREME COURT U.S.

SUPREME COURT OF THE UNITED STATES
No. 21-90
Abel Belmonte

City of Dallas
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:

®

I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's f4ffice, 1 First Street, NE W shington, D.C. 20543).
Signature:
Date:
(Type or print) Name
0 Mr.

Mrs.

Ms.

Firm

City Attorney's Office, City of Dallas

Address

1500 Marilla Street, 7DN

City & State

Dallas, Texas

Phone

214-670-3519

0 Miss

Zip 75201
Email lyudmyla.chuba@dallascityhall.corn

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Abel Belmonte
cc:

